DELEGATIONS OF AUTHORITY FOR ASSET DISPOSITIONS



               Audit Report No. D99-045
                 November 29, 1999




               OFFICE OF AUDITS

         OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                              Office of Audits
Washington, D.C. 20434                                                                 Office of Inspector General




   DATE:                           November 29, 1999

   MEMORANDUM TO:                  A. J. Felton
                                   Deputy Director
                                   Division of Resolutions and Receiverships



   FROM:                           Shirley C. Ward
                                   Regional Director

   SUBJECT:                        Delegations of Authority for Asset Dispositions

   This report presents the results of the Office of Inspector General’s (OIG) audit of the use of
   delegated authority for asset disposition cases within the Division of Resolutions and
   Receiverships’ Dallas Office (DRR-Dallas). Our audit concluded that DRR-Dallas officials
   responsible for approving asset disposition cases acted within the scope of their delegated
   authority. However, we did identify one issue regarding the inconsistent use of position titles by
   approving officials, which we brought to management’s attention, and for which management is
   taking action.


   BACKGROUND

   According to Chapter X of the Federal Deposit Insurance Corporation’s (FDIC) Asset
   Disposition Manual, the FDIC’s Board of Directors delegated to the Case Review Committee
   and the Director of the Division of Resolutions and Receiverships (DRR) the authority to
   conduct asset management and disposition functions, including expending funds on behalf of the
   Corporation for asset-related matters. In turn, the Director of DRR has re-delegated asset
   management and disposition authority to various DRR officials, including the Deputy Director,
   DRR-Dallas.

   The Deputy Director further re-delegated to his own managers the authority to act on behalf of the
   Corporation in matters related to asset management and disposition. Based on the guidelines set
   forth in FDIC Board Resolution 062371, dated May 6, 1997, DRR-Dallas developed its own re-
   delegation matrix, which became effective on September 15, 1997. The matrix summarizes in chart
   form by position title the re-delegated authority for 29 specific situations related to asset disposition.
   For example, column 2 of the matrix states that a Supervisory Specialist, Owned Real Estate, has
   authority to sell property with an appraised value of up to $1.5 million.
OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether DRR-Dallas officials complied with the
delegations of authority guidelines established by the FDIC Board of Directors and DRR
management. The audit covered asset dispositions handled by DRR-Dallas for the period
January 1, 1998 through March 31, 1999. For asset-related transactions from January 1, 1998
through July 5, 1998, we relied on the criteria contained in FDIC Board Resolution 062371,
dated May 6, 1997. For transactions as of July 6, 1998 through March 31, 1999, we referred to
the criteria contained in DRR Memorandum – 1000.2, Revised Delegations of Authority, dated
July 6, 1998. The DRR re-delegation matrix of September 15, 1997 remained in effect
throughout the period covered by the audit.

Out of approximately 2,300 asset disposition cases submitted for approval during the period
covered by our audit, we judgmentally selected 62 cases for review. The value of the sampled
cases totaled approximately $460 million. We designed our case selection methodology to cover
several of the 29 types of asset transactions contained in the re-delegation matrix and a variety of
the DRR-Dallas officials who approved asset transactions during the audit period. The 62
sampled cases were approved by 19 different DRR-Dallas officials. Further, to gain an
understanding of the FDIC’s guidelines for delegating authority for asset-related cases, we
interviewed DRR-Dallas officials responsible for the disposal of the assets selected in our
sample.

We did not evaluate DRR's system of internal controls related to the case approval process or the
proper use of delegated authority because we concluded that the audit objective could be met
more efficiently by conducting substantive tests rather than by placing reliance on the internal
control system. We conducted the audit from March 25, 1999 through June 18, 1999, in
accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

In all of the asset disposition cases we reviewed, DRR-Dallas officials acted within their appropriate
delegated authority. Specifically, in all 62 asset-disposition cases we sampled, we found that the
DRR-Dallas approving official was authorized to approve the particular type of transaction and that
the case’s dollar threshold was within established limits.

Although all asset-related cases in our sample were appropriately authorized, during our testing we
did note inconsistencies regarding the use of position titles by approving officials. Specifically, in 31
of the 62 cases we reviewed, the position titles used by approving officials in the asset disposition
case files did not match the titles indicated on the DRR-Dallas organization charts and/or DRR-
Dallas’ re-delegation matrix. For example, the approving official on case number 450-12893-98-
AML signed as Assistant Regional Manager; however, both the organization chart and the re-
delegation matrix listed the official as a Supervisory Specialist. It is important to reiterate that the 31
position title discrepancies did not adversely affect the proper exercise of delegated authority
because the changes in position titles did not change the responsibilities of the approving officials.




                                                    2
As previously stated, we determined that the approving officials had sufficient delegated authority to
approve the cases they signed.

We discussed the situation with DRR-Dallas management. They acknowledged the inconsistencies
and attributed them to a 1998 DRR-Dallas reorganization. At the time of the reorganization, position
titles were changed in the official organization charts, but the matrix was not amended to reflect the
new titles and approving officials did not always use the new position titles when approving cases.
To eliminate future inconsistencies and any possible confusion regarding whether an official is
authorized to approve a particular asset-disposition case, we believe that DRR-Dallas management
should ensure that the position titles used by approving officials agree with those titles indicated on
the official organization charts and the DRR-Dallas re-delegation matrix.

To address our concern, pending completion of a formal reclassification of positions, which DRR-
Dallas has requested of the FDIC’s Office of Personnel, DRR-Dallas officials indicated that they
plan to notify all approving officials in writing of their specific delegations of authority. A copy of
these notifications will be given to the DRR-Dallas case review technician who is responsible for
confirming whether asset management and disposition cases were properly approved. Because of
the actions already planned by DRR-Dallas management, we are not making any formal
recommendations in this report.


CORPORATION COMMENTS AND OIG EVALUATION

On October 26, 1999, the Deputy Director, DRR-Dallas, provided a written response to the draft
report. The response stated that steps have already been taken to eliminate the inconsistencies.
On October 20, 1999, the Dallas Field Operations Branch Personnel Department advised DRR-
Dallas that position descriptions had been approved and organization charts changed to reflect
position titles commensurate with delegated authority.




                                                   3
                                                                                                                         APPENDIX I
                                            CORPORATION COMMENTS


                           FDIC                                                                            A. J. Felton
                           Dallas Field Operations Branch                                               Deputy Director
                           1910 Pacific Ave.
                           Dallas, Texas 75201                                                          (972) 761-8290    fax: (972) 761-8292




                                             MEMORANDUM

Date:                          October 26, 1999

To:                            Shirley C. Ward
                               Regional Director
                               Office of Inspector General



From:                          A.J. Felton
                               Deputy Director
                               DRR Dallas Filed Operations Branch

Subject:                       OIR Draft Report 99-203
                               Delegations of Authority for Asset Dispositions

We are in receipt of the above named report dated October 4, 1999. We are
pleased that your audit of the credit decisions made under authority delegated to
DFOB resulted in no findings of incorrect use or abuse of that authority. Your
suggestion relative to the titles shown on our organizational chart was most
helpful and the steps have already been taken to eliminate the situation outlined
in your report. On October 20, 1999 DFOB Personnel Department advised that
the pending position descriptions had been approved and the DFOB
organizational chart had been changed to reflect appropriate titles in conjunction
with their respective delegated authority.

Should you have any questions, please do not hesitate to call.

c:        Rick Hoffman


C:\MyDocuments Felton Memo to Shirley Ward on Delegations of Authority for Asset Dispositons.doc (lk)


                                                                    4
